fi
nome  CIQCKLE

L a 1 Brie fs E-Mail Address:
Omaha, Nebraska 68102-1214 es Est. 1925 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

LABOOM DISCO, INC.,
Petitioner,
v.
RADAMES DURAN, ON BEHALF OF HIMSELF
AND ALL OTHERS SIMILARLY SITUATED,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 6642 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of September, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ae thoes Oude h, Bh le

My Comm. Exp. September ยง, 2023
Affiant

    

Notary Public 40106
